IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF PENNSYLVANIA
UNITED STATES OF AMERICA,
Plaintiff,
Criminal Action
vs.
No. 16-148
ROBERT BERNAL, JR.,
Defendant.
___________________________________

Transcript of proceedings on May 23, 2019,
United States District Court, Pittsburgh, Pennsylvania,
before Cathy Bissoon, District Judge

APPEARANCES:
For the Government:

Carolyn J. Bloch, Esq.

For the Defendant:

Andrew Lipson, Esq.

Court Reporter:

Richard T. Ford, RMR, CRR
6260 Joseph F. Weis Jr. US Courthouse
Pittsburgh, PA 15219
(412) 261-0802

Proceedings recorded by mechanical stenography; transcript
produced by computer-aided transcription

APPENDIX &

2

(Proceedings held in open court; May 23, 2019.)

1
2

THE COURT: Now is the time for the sentencing in

3

United States of America versus Robert Bernal, Jr., Criminal

4

Case No. 16-148.
Can counsel please identify themselves for the

5
6

record.
MS. BLOCH: On behalf of the United States, Carolyn

7
8

Bloch.
MR. LIPSON: Andrew Lipson from the Federal Public

9
10

Defender's office on behalf of Mr. Bernal, Jr.
THE COURT: On June 18th, 2018, the defendant

11
12

pleaded guilty to the charge at Count 1 of the indictment

13

against him which charged him with on or about December 3rd,

14

2015, knowingly using a computer to distribute an image

15

depicting prepubescent minors engaging in sexually explicit

16

conduct, in violation of Title 18 United States Code

17

Section 2252(a)(2). That day I accepted the defendant's plea

18

and adjudged him guilty of that offense.
At that time while not pleading guilty to Counts 2

19
20

and 3 of the indictment, defendant acknowledged his

21

responsibility for the conduct charged in those counts and

22

stipulated that the Court may consider it in imposing a

23

sentence.

24
25

Also at the hearing on June 18th the parties
informed the Court that the government and Mr. Bernal had

3

1

entered into a plea agreement. Thereafter, I ordered that a

2

presentence investigation be completed by the United States

3

probation office. The final presentence investigation report

4

was prepared on November 9th, 2018, and was disclosed to me,

5

defendant and his counsel, and to counsel for the government.
On October 12th, 2018, and November 19th, 2018,

6
7

the Court received victim impact statements from the probation

8

office.
Initially only the government submitted a position

9
10

with respect to sentencing factors, noting on November 29th,

11

2018, that it had no objections to the presentence report. On

12

January 15th, 2019, the probation office filed an addendum

13

to the presentence investigation report memorializing the

14

government's lack of objections and defendant's non-filing.

15

On January 9th, 2019, the government filed its

16

sentencing memorandum discussing how the factors cited in

17

Title 18 United States Code Section 3553 apply to defendant.

18

The government's memorandum noted that defendant's admission

19

that he is addicted to viewing child pornography and his

20

possession of over 90 videos and 550 image files depicting

21

minors engaged in sexually explicit conduct, including bondage

22

and bestiality, indicated that he should receive a higher end

23

sentence.

24
25

The government argued defendant's status as a
regular purchaser of child pornography who shared those images

4

1

with other like-minded individuals supports a significant term

2

of imprisonment in the case.

3
4
5

On January 23rd, an additional victim impact
statement was forwarded to the Court by the probation officer.
On January 24th, the Court ordered that the

6

parties indicate their positions on the appropriate scope of

7

restitution in this case. Specifically, the Court asked the

8

parties to articulate their respective positions as to whether

9

the Court may order restitution for the victims of Counts 2

10
11

and 3 based on the plea agreement in this case.
On February 1st, both the government and

12

defendant filed responses to the Court's January 24th order.

13

The government's position was that the victims of conduct

14

underlying Counts 2 and 3 are not entitled to restitution.

15

Defendant's response indicated his agreement with

16

the government's confirmed position that victims outside of

17

the count of conviction do not have standing to seek

18

restitution.

19

On March 28th, the Court ordered the probation

20

office to submit a supplemental report regarding the amount of

21

restitution requested by Sarah of the Marineland series. The

22

probation office's supplemental report filed on April 10th

23

clarified that while it was originally believed that Sarah was

24

the victim depicted in the image from the Marineland series

25

possessed by defendant charged in Count 1, after further

5

1

review it is in fact a different Marineland series victim.

2

The probation office noted that the US Attorney's office

3

confirmed with counsel for the victim that she is not

4

currently seeking restitution in this matter.
On April 8th, defendant filed his written

5
6

position with respect to sentencing factors, noting that --

7

notifying the Court of his intention to argue that various

8

enhancements applied by the probation office over-represent

9

the defendant's culpability in this case. As such,

10

defendant's counsel believes a downward variance from the

11

guideline range is necessary to avoid an overly punitive

12

sentence.

13

On April 10th, defendant filed his sentencing

14

memorandum describing the physical and sexual abuse defendant

15

endured as a child as well as his subsequent drug and alcohol

16

abuse and persistent suicidal ideation and other mental health

17

issues defendant faced in his teenage and young adult years.

18

Defendant's memorandum stressed his transformation

19

since his arrest and his placement at Remnant House, in part

20

due to his abstinence from substance abuse. Defendant has

21

taken on leadership roles within Remnant House and has earned

22

praise from its founder for his behavior, he has followed all

23

the conditions of his bond for the last 32 months, and he has

24

maintained his sobriety and worked productively. For these

25

reasons defendant argued that a downward variance is

6

1
2

warranted.
Additionally, defendant's memorandum argued that

3

the Court should not give the same weight to the advisory

4

guideline range in this case as it would in others because the

5

child pornography guideline is fundamentally flawed.

6

Specifically, the defendant argues that the guideline is not

7

the product of the typically reasoned approach taken by the

8

Sentencing Commission but, rather, has overly punitive results

9

motivated by an aversion to the underlying facts.

10

Defendant also argues that the enhancements for the

11

use of a computer and number of images constitute double

12

counting because the ease by which persons could obtain child

13

pornography via computer have resulted in large increases in

14

the volume and accessibility of child pornography for entry

15

level offenders.

16

Defendant extended his double counting argument to

17

the enhancement for distribution, arguing that the guideline

18

range already increases his base offense level from 18 for

19

possession to 22 for distribution.

20

The defendant argues that all the enhancements

21

applied are nearly ubiquitous in child pornography cases and,

22

therefore, obscure the history and characteristics of the

23

individual defendant before the Court and his specific

24

offense, contrary to Section 3553's purpose.

25

Defendant's memorandum also argues that he does not

7

1

have the means to pay the additional $5,000 assessment under

2

the Justice for Victims of Trafficking Act.
Attached to defendant's memorandum are a summary of

3
4

the history of the child pornography guideline and amendments

5

as well as letters of support from his managers and co-workers

6

at Uno Chicago Grill and the founder of Remnant House,

7

Dr. David Sutton.
On April 15th, the government filed an amended

8
9

position regarding restitution. The government stating that

10

it recently reviewed the Third Circuit opinion in United

11

States v. Mentzer and concluded that the Court may exercise

12

its discretion in this case to award restitution to the

13

victims of Counts 2 and 3 and changed its previous position

14

with respect to restitution.
Specifically, the government points to the plea

15
16

agreement in the case, which includes broad language leaving

17

it to the Court to determine the victims and/or other persons

18

or parties who will receive restitution authorized by law.
As the plea agreement is silent as to whether this

19
20

determination is limited to the count of conviction, the

21

government argues that it allows the Court to award

22

restitution to victims of the conduct charged in Counts 2 and

23

3.

24
25

Having reached this conclusion, the government
provided information regarding the restitution claimants whose

8

1

images defendant received and possessed as charged in Counts 2

2

and 3. For each claimant the government provides all the

3

information it had obtained regarding total amount of loss,

4

the number of prior restitution orders, and total amount of

5

restitution ordered, and the mean, median, and mode amounts

6

for past restitution orders as of April 10th, 2019.
The following day, April 16th, defendant filed a

7
8

response to the government's amended position, characterizing

9

the government's amended position as an about-face, which is

10

contrary to law and a breach of the parties' plea agreement.

11

Defendant argues the government's original position -- that no

12

restitution could be ordered for Counts 2 and 3 based on the

13

plea agreement -- was submitted after Mentzer was decided and

14

demonstrated that the parties' agreement did not constitute

15

restitution outside the counts of conviction -- the count of

16

conviction. Therefore, defendant stated that no restitution

17

should be awarded in this case.
Finally, on May 1st, 2019, an additional victim

18
19

impact statement was forwarded to the Court by the probation

20

office.

21
22

With that, I will invite Mr. Lipson, Mr. Bernal,
and Ms. Bloch to the podium.

23

Jim, would you please swear in Mr. Bernal.

24

THE DEPUTY CLERK: Yes, Your Honor.

25

(Defendant duly sworn.)

9

1

THE COURT: Mr. Bernal, prior to this hearing I

2

reviewed the entire file in your case, including the

3

presentence investigation report and the addenda thereto,

4

including the supplemental addendum regarding restitution; the

5

plea agreement between you and the government; the parties'

6

written position with respect to sentencing factors other than

7

restitution; the parties' sentencing memoranda and all the

8

attachments to defendant's sentencing memoranda; the victim

9

impact statements received by the probation office and

10

provided to the Court; the parties' original positions

11

regarding restitution, as well as the government's amended

12

position and defendant's response to that amended position;

13

the probation office's proposed application of the United

14

States Sentencing Guidelines; the guidelines themselves; and

15

the recommendation of the probation office with regard to an

16

appropriate sentence in this case.

17
18

Beginning with you, Mr. Lipson, have you reviewed
the presentence report and the addenda?

19

MR. LIPSON: I have, Your Honor.

20

THE COURT: Have you discussed and reviewed those

21

documents with Mr. Bernal?

22

MR. LIPSON: I have.

23

THE COURT: Are there any errors in those documents

24
25

that you have not called to the Court's attention?
MR. LIPSON: Not that I have not called to the

10

1
2
3

Court's attention, yes, Your Honor.
THE COURT: All right. Mr. Bernal, have you
reviewed the presentence report and the addenda?

4

THE DEFENDANT: I have.

5

THE COURT: Have you discussed and reviewed those

6

documents with Mr. Lipson?

7

THE DEFENDANT: I have.

8

THE COURT: Do you have any questions or concerns

9

about those documents that have not already been raised?

10

THE DEFENDANT: No.

11

THE COURT: Are you satisfied with the service,

12

advice, and representation provided to you in this case by

13

Mr. Lipson?

14

THE DEFENDANT: I am.

15

THE COURT: Are there any other materials the Court

16

should have received prior to sentencing but did not? From

17

the government?

18

MS. BLOCH: I don't believe so, Your Honor, no.

19

THE COURT: You, Mr. Lipson?

20

MR. LIPSON: No, Your Honor.

21

THE COURT: Does the government now move for the

22

additional one-point reduction under 3E1.1(b) of the

23

guidelines?

24

MS. BLOCH: Yes, the government does.

25

THE COURT: Okay. That motion is granted.

11

1

Before the Court lays out the guideline calculation

2

here, is there any additional argument beyond what's in the

3

papers which I already read regarding the guideline

4

calculations and the enhancements?

5

MS. BLOCH: No, Your Honor.

6

MR. LIPSON: No, Your Honor.

7

THE COURT: Defense counsel's objections to the

8

probation office's applied enhancements are overruled. The

9

facts indicate that defendant was a regular consumer of child

10

pornography, purchasing hundreds of photos and videos of

11

children engaged in sexual conduct over the Internet and

12

storing that content on his phone and computer.

13

Further, defendant admitted to the FBI that he

14

shared child pornography with other Skype users. Under these

15

facts the enhancements for number of images, distribution, use

16

of computer plainly apply.

17

Additionally, the Court will note for the record

18

that the defendant and the government have stipulated to the

19

application of those enhancements in their plea agreement.

20

With that, the Court hereby adopts the factual

21

findings and the guideline applications in the presentence

22

report and supplemental addendum and makes the following

23

advisory sentencing guideline calculations:

24
25

Defendant's offense level is governed by Guideline
Section 2G2.2. Pursuant to Guideline Section 2G2.2(a)(2),

12

1
2

defendant's base offense level is 22.
Because the material involved a prepubescent minor,

3

defendant's offense level is increased two levels to 24 under

4

Section 2G2.2(b)(2).

5

Because the offense involved distribution, the base

6

offense level is increased again by two levels to 26 under

7

2G2.2(b)(3)(F).

8
9
10
11

Pursuant to Section 2G2.2(b)(4), defendant's
offense level is increased by four levels to 30 because the
images contained sadistic or masochistic conduct.
As the offense involved the use of a computer,

12

defendant's offense level is increased by two levels to 32

13

under Section 2G2.2(b)(6).

14

Pursuant 2G2.2(b)(7)(D), defendant's offense level

15

is increased by five levels to an adjusted level of 37 because

16

the offense involved 600 or more images.

17

Defendant's offense level is lowered by three

18

levels to a total of 34 because of his acceptance of

19

responsibility under Sections 3E1.1(a) and (b) of the

20

guidelines.

21

As set forth in the presentence investigation

22

report, defendant's relevant criminal convictions compute to a

23

criminal history score of six. Pursuant to the sentencing

24

table contained in Chapter 5, Part A, a criminal history score

25

of six establishes a criminal history category of three.

13

1

According to the sentencing table in Chapter 5,

2

Part A, a total offense level of 34 and a criminal history

3

category of three results in a guideline range of 18 [sic] to

4

235 months' incarceration.
According to Section 5D1.2(b)(2) and Title 18

5
6

United States Code Section 3583(k), the guideline range for

7

supervised release is five years to life.

8

According to Section 5E1.2(c)(3), as limited by

9

Title 18 United States Code Section 3571(b), the guideline

10

range for a fine in this case is between 35,000 and $250,000.
With that, I will see everyone at sidebar.

11
12

(Sidebar conference held.)

13

(Sidebar conference concluded.)

14

THE COURT: Just so it is clear for the probation

15

office and everyone who is here, the correct guideline range

16

for the case is between 188 and 235 months' incarceration.
Starting with you, Ms. Bloch, do you have anything

17
18

that you would like to bring to the Court's attention prior to

19

sentencing that you did not raise at sidebar? Do you have any

20

additional arguments with regard to restitution or any victims

21

present?

22

MS. BLOCH: I do not have any victims present,

23

Your Honor. I do want to talk about restitution a little bit.

24

In particular, in light of the Court's sort of reiteration of

25

what has transpired to date.

14

1

My re-review of the restitution situation and the

2

applicability of -- rather, whether or not the Court could

3

fashion a sentence that included restitution as to victims who

4

were not victimized as part of Count 2 of the indictment was

5

prompted in part by the Court revisiting that same issue in a

6

case of another attorney in my office.

7

So as the Court may well be aware, we sort of

8

convened as an office and allowed our -- the front office or

9

the United States Attorney to make a decision as to how to

10
11

move forward from here in light of Mentzer.
So I distinguish it in my filing because I do

12

believe that the terms of the plea agreement that was the

13

subject of that case in the Middle District of Pennsylvania

14

are, in my personal opinion, quite different than the terms of

15

our plea agreement in this case.

16

That said, the terms that -- we are now revisiting

17

all the language that we include and looking at it in a

18

different light. The United States Attorney takes the

19

position that the language as drafted in our plea agreement in

20

this case allows for the Court in its discretion to fashion a

21

restitution portion of the sentence as it applies to all

22

victims, even if they are not depicted specifically in the

23

count of conviction.

24
25

So I recognize the defense sees that as a,
quote-unquote, about-face. That's what's behind that change

15

1
2

in position.
That said, where I disagree with the defense on how

3

things played out here and how they play out in all of these

4

cases and have played out, ordinarily we receive requests for

5

restitution well after the plea has been entered. So the

6

terms of this particular plea agreement and all the other plea

7

agreements that address this very issue, there's no

8

understanding as to how much restitution will be due and owing

9

and how many victims may or may not -- who either have already

10

been identified or who will be identified will submit.

11

Because they submit to us -- they are allowed to submit to us

12

on the eve of sentencing. Frequently they come after

13

sentencing and then it's too late.

14

So at the time that we enter into these plea

15

agreements, neither party knows what the situation is unless

16

it's a very unique case where there might be a particular

17

victim who has articulated that they are not going to seek

18

restitution.

19

THE COURT: Although in the context of child

20

pornography cases, it is not uncommon for the Court to receive

21

and for the probation office to receive these types of victim

22

statements from folks who have been featured in this child

23

pornography many years ago.

24

MS. BLOCH: Absolutely.

25

THE COURT: So it seems like a very common

16

1
2

occurrence.
MS. BLOCH: It is very common. What is also common

3

is the pace with which we get them and when they tend to

4

arrive. Some of that is driven by when the NCMEC report is

5

completed. Some of that is driven by how responsive the

6

particular victim, their guardians, and/or lawyers respond to

7

us. I mean, the reality is most of the victims now who seek

8

restitution have acquired counsel. They are sometimes fast

9

and they are sometimes slow in realizing there is a case

10
11

pending in a particular district and provide it.
So I only disagree with Mr. Lipson in the sense

12

that there's been somehow some understanding at the time the

13

plea agreement was entered as to how restitution would play

14

out. I would argue to the Court that nobody had an

15

understanding at that point other than the defendant

16

recognized that any one of those victims could request a

17

payment of restitution under the law and it would be for the

18

Court to consider it as reflected in the terms of the plea

19

agreement in this case. So I want to say that.

20

With respect to obviously -- even prior to the

21

filing of the government's amended position we were still

22

acknowledging that the Court could consider in fashioning the

23

actual sentence, separate and apart from the order of

24

restitution, all of the information set forth in each of the

25

individual victim impact statements and/or requests for

17

1

restitution. Meaning sometimes in those requests the victims

2

are articulating the kinds of harms and losses they have

3

incurred even if they are not to be awarded an actual payment.

4

That there are losses, their emotional harm, their prospects

5

for employment, all of those things are still fair game I

6

think for the Court in fashioning a fair and just sentence to

7

consider. I wouldn't want anything I say here today to not

8

properly advocate on their behalf that the Court consider each

9

one of these many impact statements and the effect of

10

Mr. Bernal's conduct on them, both in the past and going

11

forward.

12

Obviously there's a number that have been submitted

13

in this case, and I won't read them specifically, but I think

14

the Court is well aware of the consequences of the receipt,

15

possession, and distribution of images of children being --

16

you know, their suffering and they have articulated very

17

clearly and repetitively just how harmful it is to their

18

mental and physical well-being and their emotional health

19

going forward to know that individuals such as Mr. Bernal are

20

continuing to view and get pleasure and share obviously the

21

imagery of their suffering essentially.

22

As you indicated, the government's amended position

23

with regard to restitution, I can sort of articulate for the

24

record very simply that what I have alluded to in my amended

25

position, there are six victims: At School, Blue Pillow,

18

1

Jenny, Marineland, Sweet Sugar, and Tara. Those series, some

2

of those series obviously include more than one victim. So

3

there are essentially six victims who have requested

4

restitution.
As it relates to At School, the victim known as

5
6

Violet, there was one video.

7

In Blue Pillow, there were six still images.

8

In Jenny, one video.

9

Sarah, one of the victims depicted in Marineland,

10

there were ten stills.
Pia depicted in Sweet Sugar series, Mr. Bernal had

11
12

one still.

13

In the Tara series, he had four stills.

14

What the government's position is, which inures to

15

the benefit of the defendant actually, is that based upon all

16

of the information set forth in our pleading, we believe that

17

the Court should fashion, if it elects to do so in its

18

discretion in this case, a restitution requirement as to each

19

of the six that is at the median awarded, which is actually

20

the less severe amount than could be calculated. Although I

21

have listed it here, it is embodied in a specific amount that

22

the government is suggesting that the Court, if it fashions a

23

sentence that includes this, would award.

24
25

Those numbers obviously range anywhere from $1,100
to as much as 4500 as it relates to Sweet Sugar based upon all

19

1

of the factors that Paroline dictates that the Court look to

2

in guidance for fashioning restitution portions of the

3

sentence.

4

THE COURT: Okay.

5

MS. BLOCH: If there is anything the Court wants me

6

to speak to that's not been covered either in what I have just

7

shared or in my written filing, I would be happy to address

8

that.

9
10
11

THE COURT: No. Is there anything more that you
have on sentencing beyond restitution?
MS. BLOCH: There is not, Your Honor. I will say

12

to the defendant's credit, obviously in this particular

13

instance the fact that he has been on bond for so long, given

14

the postponements, he has had the opportunity to work and to

15

function in the regular world for an extended period of time,

16

and I will say that to his credit he has used that time very

17

wisely and he has been -- there have been no infractions,

18

there has been no other criminal conduct that we are aware of.

19

He has stayed the course. For that I do think the Court

20

should certainly factor that in in fashioning a sentence.

21

THE COURT: Thank you. Mr. Lipson, any legal

22

reason why sentence cannot be pronounced or anything that you

23

would like to offer on your client's behalf, including any

24

additional argument regarding restitution?

25

MR. LIPSON: Yes, Your Honor. I would like to

20

1

start with restitution. I would like to deal with that,

2

compartmentalize it, then put it to the back burner, then

3

focus on Mr. Bernal because I do think that the issues that we

4

are discussing today, although restitution to the victims of

5

this offense is important, I do believe that the gravamen of

6

what we are seeking to accomplish here today is about what

7

should happen with Mr. Bernal over the course of the years to

8

come.
With respect to restitution, as an advocate for

9
10

Mr. Bernal, I have the luxury to focus on his legal and

11

pecuniary interests. I do want to say that Mr. Bernal at the

12

outset acknowledges the harm that he caused with this offense.

13

He took responsibility for this offense when law enforcement

14

came to his home. He admitted the extent of his involvement

15

to this Court, he pled guilty to Count 1 of the indictment of

16

distribution of child pornography and accepts responsibility

17

for his actions.
And being a victim of child -- of sexual abuse as a

18
19

minor, as he did, he understands the abuse that those that

20

were in positions of trust cause on those victims and the

21

effect that his actions had in perpetuating that harm into the

22

future.

23

That said, the parties' agreement contemplated

24

dismissal of two counts, the receipt and the possession counts

25

in this case. The restitution claims that are made today are

21

1

based on individuals that were harmed as a result of conduct

2

on Counts 2 and 3 of the indictment. The parties agreed that

3

no restitution would apply here.

4

THE COURT: That is not what the agreement says.

5

MR. LIPSON: Your Honor, at the very most,

6

Your Honor, the plea agreement is silent on that issue and the

7

government acknowledges that both in its papers and here

8

today.

9
10

As the government explained -THE COURT: Let's clarify it. The plea agreement

11

is not silent as to restitution. The plea agreement is silent

12

as to which count the restitution should apply.

13

MR. LIPSON: That is correct, Your Honor. And

14

Mr. Bernal concedes that. However, as the Court is well

15

aware, the Supreme Court's decision in Paroline and Hughey

16

establish that restitution can only be ordered for victims of

17

the count of conviction. The restitution statute permits

18

parties to contract effectively that other victims of

19

different conduct that is not in the offense of conviction can

20

be entitled to restitution. That's under 18 United States

21

Code Section 3663A(a)(3).

22

That section in particular says: The Court shall

23

also order, if agreed to by the parties in a plea agreement,

24

restitution to persons other than the victims of the offense.

25

The government has conceded as one of the parties

22

1

to this agreement that there was no meeting of the minds that

2

victims for the dismissed conduct were entitled to

3

restitution. They say that the plea agreement is silent on

4

that issue. That the Court is well aware that Mr. Bernal

5

cites to numerous cases that say: Any ambiguity in an

6

agreement or a plea agreement between the government and a

7

must be construed in favor of the defendant in light of the

8

disparity of bargaining power between those two parties.

9

THE COURT: This is a special plea agreement,

10

though. This is not a plea agreement where the individual is

11

pleading guilty to one count and the agreement itself does not

12

contemplate me considering the other counts to which he did

13

not plead guilty.

14

In this particular agreement Mr. Bernal agreed that

15

I could take into account Counts 2 and 3 for the purposes of

16

fashioning a sentence. One of the things I do in fashioning a

17

sentence is decide on the issue of restitution.

18

MR. LIPSON: Yes, Your Honor. And I do want to

19

address the nature of what was in the plea agreement between

20

Mr. Bernal and the government, what was in the plea agreement

21

between the parties in United States versus Mentzer, and what

22

is in this district the way in which this US Attorney's office

23

deals with specific plea agreements that contemplate conduct

24

outside the offense of conviction for purposes of restitution.

25

THE COURT: I only get to that point if I decide

23

1

there is an ambiguity in the agreement, and I don't believe

2

the agreement is ambiguous. I can consider Counts 2 and 3 in

3

fashioning a sentence.

4

MR. LIPSON: But, Your Honor, I believe that it is

5

instructive to the Court's analysis of ambiguity the parties

6

own statements about that agreement. The government in its

7

19-page renewed position on restitution states that it was

8

silent on that issue. The government after entering the plea

9

agreement, after Mentzer comes out, and well after the passage

10

of Section 3663A(a)(3), stated that no restitution was due and

11

owing in a filing to this Court, thus reflecting its own view

12

of what the parties agreed to in the plea agreement.

13

And a party adverse to the defendant is repeatedly

14

indicating to the Court that there is no explicit agreement

15

that restitution should apply to the dismissed counts. And

16

learning that Court took a contrary position in another case,

17

I believe it's the Goehring case, that occurred the Friday

18

before the Monday filing the government made, Your Honor, I

19

think that the government's position is wholly inconsistent

20

with what had transpired in this case prior to that.

21

Your Honor, I think that there are also some

22

practical difficulties with how this played out. The way the

23

sausage is made typically is that there are restitution claims

24

made. They're submitted to the probation office. They are

25

then forwarded onto the Court, the US Attorney's office, and

24

1

to my office so that the defense attorney can then reach out

2

to plaintiff's counsel who submitted that claim to discuss

3

what their position is and what Mr. -- and our office's

4

client's positions are.

5

When the government takes a position that

6

restitution is not due and owing to those claimants because

7

they are claiming on dismissed counts, defense counsel will

8

rely on that and not engage in those negotiations when the

9

government, who is a party to the agreement, is already taking

10
11

that position with the Court.
I understand the government has offered a revised

12

calculation, which took the median amount of each of these,

13

which they claim now is the lower amount, but I can assure

14

you, Your Honor, that in my experience when negotiating with

15

these plaintiff counsel that represent these victims, the

16

resolution is either reduced to zero or far lower than what's

17

presented by the government today. I think that by the

18

process in this case, I think there is --

19

THE COURT: So are you suggesting you did not have

20

an opportunity to engage in that process?

21

MR. LIPSON: Your Honor, I am.

22

THE COURT: If I were to indicate that it was the

23

Court's inclination to grant restitution in this case, are you

24

suggesting that you are not prepared to go forward today?

25

MR. LIPSON: Your Honor, I think -- I would suggest

25

1

that we deal with the sentencing of Mr. Bernal today. I know

2

that through all the continuations of this that has wreaked

3

havoc I think -- it has wreaked havoc on my client's mental

4

stability and well-being. I think he is prepared to go

5

forward, accept the Court's judgment with respect to the

6

incarceration piece today. But if the Court's position is

7

that it is going to order restitution, Your Honor, I would ask

8

that that amount be determined at a later date which I believe

9

can be extended either 60 or maybe up to 90 days after

10

sentencing hearing. I would ask that that be done to give me

11

additional opportunity.

12

I will say that the bargaining power is a bit

13

different in this context than it would be prior to

14

sentencing. However, if that is the -- if the Court does

15

intend to rule that way, then I will do my best to represent

16

my client in that process.

17

Your Honor, I do want to state that I don't believe

18

Mentzer applies to this case. I believe Mentzer had an

19

explicit agreement under 3663A(a)(3) that said that where the

20

parties referred directly to relevant conduct, that that can

21

be considered specifically for restitution. That is not the

22

situation that we have here.

23

In light of the government's previous position,

24

which reflect what the meetings -- the meeting of the minds

25

were for this plea agreement, that there was no agreement that

26

1

the Court could consider relevant conduct for purposes of

2

restitution.

3

At the very -- the government concedes there was

4

silence on that issue. That is not what 3363A(a)(3)

5

contemplates, an implied agreement on restitution with the

6

Supreme Court's decisions in Paroline and Hughey, 3663A(a)(3)

7

contemplates an explicit agreement that was bargained for at

8

arms' length by each party and contemplated by the parties

9

when they entered into that agreement.

10

That isn't what we have here, Your Honor, and I

11

believe that -- I believe the government's change of position

12

should not be countenance.

13
14
15

THE COURT: I will hear whatever additional
argument you have with respect to sentencing.
MR. LIPSON: All right. Thank you, Your Honor.

16

Mr. Bernal has no prior record of child sexual abuse. He is a

17

man who has worked consistently since he obtained his GED in

18

2009. He is a recovering alcoholic. He is a victim of sexual

19

abuse at the hands of his own mother.

20

Over the last 32 months Mr. Bernal has had an

21

exemplary record. Certainly exemplary compared to his conduct

22

immediately prior to that. He has had no violations on his

23

bond conditions, he has no violations under the Remnant House

24

rules, a home that is run by Pastor David Sutton who is here

25

in the court today to show his support for Mr. Bernal, who has

27

1
2

resided at his home for over two and a half years.
He has had no transgressions related to child

3

pornography. He has not even had an unauthorized access of

4

the Internet during this time, Your Honor. He in that sense

5

has had complete control of his impulses in this area.

6

I think that's very important, Your Honor, because

7

in these kinds of cases I think the elephant in the room is

8

this is an individual that can control these impulses because

9

it relates to sexual desire and attraction, and what he has

10

demonstrated is that out on electronic monitoring, Your Honor,

11

and under close supervision by the probation office and by the

12

folks at Remnant House, he has been able to exist within that

13

highly structured environment and has been able to live a

14

law-abiding, hard working life.

15

At the Remnant House he found that structure and

16

community that would allow him to confront his alcoholism and

17

his childhood trauma and he is living the very best life that

18

he has lived in his life to this point.

19

Your Honor, as I spent much of my sentencing memo

20

discussing, the advisory guidelines prescribe an advisory

21

guideline range of 188 to 235 months. This is despite

22

Mr. Bernal having no prior previous similar offenses and the

23

fact that his offense falls within the mine-run of child porn

24

distribution offenses.

25

For the reasons that follow, the Court should

28

1

reduce Mr. Bernal's offense score from 34 down to 27. The

2

Court should sentence him to the bottom of the new range that

3

is created by that new offense score, which is 87 to 108

4

months, for a total sentence of 87 months, and a prolonged

5

term of supervised release.

6

Such a sentence would be sufficient but not greater

7

than necessary to give effective punishment in this particular

8

case. It will acknowledge the seriousness of his offense with

9

a seven and a quarter year sentence, it will reflect his

10

relative culpability as compared to other distributors of

11

child pornography, and will permit Mr. Bernal to return home

12

and to remain on this path of rehabilitation and to continue

13

to contribute to society.

14

Your Honor, as I discussed in my -- in the

15

sentencing memo, sentencing memorandum, Section 2G2.2 of the

16

United States Sentencing Guidelines should be afforded less

17

deference by this Court. Congress is not, although they have

18

the power, is not intended to meddle in the guidelines

19

associated with a particular type of offense. This is an

20

offense that evokes emotion. But the decisions by this

21

circuit in Grove and the Second Circuit in Dorvee talk about

22

how courts have to he remove themselves from the emotion of

23

these cases, and that's something that Congress was not able

24

to do. For that reason, since 1987 this guideline has been

25

amended nine times by congressional mandate, which has served

29

1

to exponentially increase penalties under the sentencing

2

guidelines for defendants accused and convicted of these

3

offenses.
In that sense, what Congress has done is

4
5

marginalize the role of the Sentencing Commission and made

6

this guideline one that is not the product of empirical data

7

and national experience.
Courts around the country have determined that

8
9
10

because of that meddling, it should be afforded less
deference, both around the country and within this courthouse.
As the Third Circuit explains in United States

11
12

versus Arrelucea-Zamudio, an advisory guideline represents a

13

rough approximation of sentences that might achieve

14

Section 3553(a)'s objective only when it is the product of

15

empirical data and national experience guided by a

16

professional staff with appropriate experience. That is at

17

581 F.3d 142, Page 155, Note 12. It is a Third Circuit 2009

18

opinion.

19

It is with that backdrop that the Court should

20

determine the appropriate offense score to both reflect the

21

seriousness of Mr. Bernal's offense and his relative

22

culpability to other defendants in these cases.

23

As the Court noted at the outset of this hearing, I

24

argue that there is impermissible double counting with how the

25

guidelines are calculated in this case. First --

30

THE COURT: I am familiar with your arguments on

1
2

this point. If you want to go beyond them, that's fine, but

3

to the extent that you were just talking about what you have

4

already written, I feel pretty good about it.
MR. LIPSON: Understood, Your Honor. I would just

5
6

note that this is an Internet crime. The ability -- over

7

95 percent of people who are convicted of this use a computer.

8

That applies in all of these cases. Because a computer is the

9

basis of using this, the ability to get from zero to 90 videos

10

is very easy, Your Honor. The packages, zip files, the manner

11

in which these files can be purchased online just will bring

12

you to the top of the guidelines in a matter of clicks. In

13

that sense, Your Honor, I think that these guidelines create

14

an incongruency with the realities of how these offenses are

15

committed.

16

Your Honor, I do want to make a note, though, about

17

the double counting as it relates to the distribution here. I

18

think that with an increased base offense level that is

19

specifically tailored for distribution, Your Honor, I think

20

that the two-point enhancement for distribution is being

21

double counted based on that four additional points that come

22

in the base offense level. To the extent that it's, well,

23

that could really be counted for receipt and not distribution

24

because that also starts at a 22, the guidelines account for

25

that, Your Honor, by doing a two-point reduction for

31

1

individuals who just had receipt with no distribution

2

behavior.

3

So the guidelines as currently situated acknowledge

4

that at least two of those four points are already applied to

5

a base offense level because of distributive behavior. So an

6

additional two points, Your Honor, I think is about as plain

7

double counting as we can see.

8

Your Honor, I do think that the number of courts

9

that have found that the guidelines in this case that place

10

people at or near the statutory maximum is problematic at the

11

very least. In light of the history of this guideline, it

12

only becomes more troublesome. What courts have to sift

13

through because of how difficult this guideline operates is

14

how do they apply Section 3553(a) to acknowledge what

15

actual -- the seriousness, nature and seriousness of the

16

offense when the guidelines obscure that. That makes your job

17

far more difficult, Judge, because it is difficult to place

18

this on the spectrum of seriousness.

19

And, Your Honor, I do believe that because there

20

was no -- Mr. Bernal did not individually harm the victims in

21

these photos, he was not directing harming them and causing

22

these videos to occur, that a sentence that approaches the

23

statutory maximum -- I want to be clear, Your Honor, there is

24

harm associated with Mr. Bernal's behavior. I don't mean to

25

make light of that. But the practical reality is that

32

1

individuals that are charged in the state for committing --

2

for creating these videos and for actually sexually abusing

3

these children are far -- are lower than the guidelines that

4

are prescribed by the Sentencing Commission, Congress' mandate

5

for distributing these videos.

6

As you will hear from Mr. Bernal, he understands

7

the harm that is caused by his actions. I don't mean to

8

minimize that. All I am trying to do is work today with the

9

Court to fashion a sentence that is sufficient but not greater

10
11

than necessary.
Your Honor, tabling the discussion of the

12

guidelines, which is really set forth in my papers and I

13

suppose I have been a bit redundant explaining that again to

14

the Court, what Mr. Bernal has done since his arrest in this

15

case I think has been out of the ordinary. Someone does not

16

deserve accolades for merely following the law. That is not

17

my point. My point is that the nature of this offense

18

contemplates a defendant, an individual, a young man that is

19

not capable of controlling their urges, that is a danger to

20

the community, that could potentially be a predator to one of

21

the most vulnerable classes of citizens in our country and

22

that is minors.

23

Your Honor, for 32 months Mr. Bernal -- and it is

24

sad that it took this, but it took being arrested in this

25

case, it took being discovered for these crimes and his

33

1

admission to these crimes for him to really get that wake-up

2

call. It is too late for Mr. Bernal to escape punishment, of

3

course, Your Honor. But despite that punishment hanging over

4

him, despite knowing that he was facing at least five years

5

incarceration for his penalties after I explained to him the

6

realities of charging decisions by the US Attorney's office

7

and what Congress has mandated that you sentence him to, he

8

didn't give up. He doubled down and said, I have to confront

9

what's been happening in my life since I was ten years old.

10

At the Remnant House with Pastor Sutton, he found a

11

community of men that have either been charged or convicted

12

with these kinds of offenses, many of whom have also suffered

13

some sort of abuse as a child or even into adulthood. In that

14

sense, there was a community for the first time that

15

Mr. Bernal felt comfortable opening up to. It was a community

16

for the first time where he was surrounded by other men that

17

understood his position.

18

I would like to thank Pastor Sutton for providing

19

such an environment for Mr. Bernal and other clients that I

20

have and the work that he does there. But in particular, the

21

process there to get people to buy-in to this community and

22

buy-in to living a different sort of lifestyle has worked

23

wonders for Mr. Bernal. The foundation for that is through

24

spirituality, Your Honor, but you can lead a horse to water,

25

someone's got to walk through that door. Mr. Bernal did and

34

1
2

how.
He has maintained consistent employment during that

3

time, aside from the first six-month period where he had

4

trouble finding a job. As the Court is aware, there are three

5

letters from managers that have worked with Mr. Bernal that

6

really do speak wonders about the type of employee he is and

7

can kind of I believe give the Court an imagery of the type

8

of -- the way he came to work every day, ready to work, ready

9

to do whatever is necessary, respectful to his fellow

10

employees, men and women alike, and willing to do what it

11

takes to get the job done.

12

I think that that renewed sense of self,

13

Your Honor, that has been afforded to him through this process

14

should show the Court that this is someone that is amenable to

15

supervision, that is amenable to treatment, that is amenable

16

to rehabilitation, Your Honor. So I think concerns about

17

incapacitation that sometimes pervade these kinds of cases

18

should be reduced in this particular case.

19

Your Honor, I do want to draw the Court's attention

20

to the letter submitted at Exhibit C. This is by Jennifer

21

Yoha. What I didn't quote in my sentencing memo,

22

Your Honor -- and I know the Court, as it always does, read

23

the letter fully. But this is a mother of a four-year-old and

24

a woman that was pregnant with a second child when she wrote

25

this letter for Mr. Bernal. She writes that she would never

35

1

as a mother be comfortable advocating for someone that could

2

have done this offense, but knowing Mr. Bernal and seeing the

3

way he is and seeing the way he's making positive changes in

4

his life day to day, taking each day one by one, she felt

5

compelled to write this.
I thought that was very powerful because as an

6
7

advocate in this process, I try to see the positive in all of

8

my clients, Your Honor. But as a mother and an employee that

9

saw him day in and day out, to write this letter and to write

10

the letter in the way that she did, I think it is telling

11

about the way he has been living his life for the last two and

12

a half years.
For that, Your Honor, I do believe a variance is

13
14

warranted. Not because he deserves credit for merely

15

following the rules, but in this kind of case and for this

16

particular defendant, this establishes that incapacitation is

17

not as big a concern for the Court and, therefore, the

18

guidelines, which take into account incapacitation, certainly

19

with this guideline should be -- that concern should be

20

reduced.

21

Your Honor, I think that, turning to the special

22

assessment, Your Honor, in this case, Mr. Bernal does work

23

hard. He is living paycheck to paycheck effectively. He pays

24

for both his room, board, and treatment at the Remnant House,

25

which I think is something that should also be acknowledged by

36

1

the Court. This is something he paid for out of pocket. That

2

is something -- he is indigent, he is presently indigent.

3

I think that when he emancipates out of the Bureau

4

of Prisons, he will continue to get the same kind of

5

employment, this cooking/chef work in restaurants. It is not

6

a lucrative profession. It sustains you I suppose,

7

Your Honor, if you have few expenses, but after this I imagine

8

he will have expenses at least through his supervision.

9

Your Honor, in that sense I do believe the indigency finding

10

has been met in this case and that that $5,000 special

11

assessment should not be levied.

12

Your Honor, the guidelines in this case are

13

extraordinarily high. Who stands before you today is not the

14

individual that committed this offense and it's an individual

15

that has taken serious strides in his life.

16

I do believe that a variance, despite the technical

17

applicability of those enhancements, should be made by the

18

Court to the tune of seven points. That takes him to a range

19

of 87 to 108 months. I ask that Your Honor sentence him to

20

the low end of that guideline range for an 87-month sentence.

21
22
23

THE COURT: Do you have any recommendations that
you wish for the Court to make?
MR. LIPSON: Your Honor, I believe that a facility

24

that will address not only -- I imagine that the Court would

25

already make -- the BOP will look for a facility that has sex

37

1

offender treatment, but perhaps one, Your Honor, that is a

2

facility that offers vocational training so Mr. Bernal can

3

look into other forms of employment if he's interested or a

4

place where he could perhaps work in the kitchen as a chef and

5

cook for himself and fellow inmates.

6

As detailed in the sentencing memo, Mr. Bernal

7

still has an estranged relationship with much of his family,

8

including his mother, although he does speak with his father

9

occasionally, so I think the location of his incarceration is

10
11
12
13

less important in this case.
THE COURT: Mr. Bernal, is there anything that you
would like to say on your own behalf prior to sentence?
THE DEFENDANT: Yes. I would first like to

14

acknowledge I know what I did was wrong and it has affected

15

many people. I am truly sorry to all that have been harmed by

16

my actions. I am sorry to the victims that I perpetuated this

17

crimes against them. I am sorry to the Court that it has to

18

spend time and money to apprehend me.

19

I have had three years to reflect, and this time I

20

know that I'm not the person I was. I spent years of alcohol

21

and drug abuse and low moral character. I caused a lot of

22

pain through the years to my family, friends, and to myself.

23

I burned bridges that can never be repaired. I see now that

24

all I did in those years was to hide from pain and emotion I

25

didn't know how to deal with.

38

As a child, I dealt with emotional and physical

1
2

abuse, and in my young teens sexual abuse at the hands of my

3

mother. I know the pain of abuse from my mother is similar to

4

the pain inflicted in the children in the photos I possessed.
I began huffing at the age of 11 to numb myself.

5
6

It seemed to be the only time I was right was when I felt

7

nothing at all. For years I found ways to escape through

8

drugs and sexuality, anything that would keep me numb.
These three years have been the longest time I have

9
10

spent sober and have opened my eyes to a new way of living

11

through the help and guidance of the Remnant Ministries. I

12

have learned to cope with my emotions in a more practical

13

manner, not holding in anger and exploding, not hiding from

14

sadness and blocking it, but letting things be to God.
The Remnant House gave me a structure and family,

15
16

things I never had growing up. I had real people to teach me

17

how to deal with my issues in a nondestructive manner, people

18

who I felt genuinely cared for me, people I didn't want to let

19

down.

20

Through our early morning devotions reading the

21

Bible I learned to battle selfishness, battle unforgiveness,

22

be more patient, and really care for others.

23

I know I can't undo the things I have done and the

24

harm I have caused through my offense. I know time will

25

change me and I will be sure to change for the better as I

39

1

have these three years.

2

THE COURT: Thank you.

3

Ms. Bloch, I will give you an opportunity because

4

there was a lot said, is there anything that Mr. Lipson said

5

that you would like to address?

6

MS. BLOCH: Actually, Your Honor, really the only

7

things I want to make sure the record is clear on is --

8

because this is sort of a novel restitution issue that we are

9

dealing with. One, the law allows for bifurcation if the

10
11

Court believes that is warranted here.
I will say, however, that the Court did grant an

12

extension of time for Mr. Lipson to handle the restitution

13

matter, and I would argue that he had plenty of time to confer

14

with defense counsel -- rather, excuse me, counsel for victims

15

who have submitted requests for restitution in an effort to

16

negotiate a resolution if that's what he wished to do.

17

Three, I just want to make sure it is clear to the

18

Court today and going forward that the way Mr. Lipson on the

19

record was incorrect about how victim impact statements are

20

acquired and shared. There is an electronic process that

21

ensures the anonymity of all of these child victims.

22

So the process actually is that the victim

23

coordinator in my office communicates with a special office

24

designated for this purpose at the Department of Justice. So

25

once the National Center for Missing and Exploited Children

40

1

have prepared a report and indicated whether there are any

2

identified victims, there is then communication between my

3

office and the Department of Justice to acquire sufficient

4

information about those individuals, not their real names, but

5

sufficient information to allow for notification to those

6

victims and/or the representatives or lawyers so that they can

7

submit for restitution.
All of that is a fluid process as I indicated.

8
9

This happens over time. It is very hard for the government to

10

ever say that there is -- that restitution requests are

11

completed because in many of these cases there are thousands

12

of images involving so many children, many of whom are never

13

identified, but many of whom are.
So the actual -- particularly when the victim is

14
15

represented by counsel, those are submitted almost always to

16

the United States Attorney's office, specifically me if they

17

realize it's my case, for example, electronically. These

18

lawyers' offices send the package, it generally includes all

19

of the various exhibits that support their claim and the

20

amount of their claim.

21

Then the victim coordinator in my office then

22

shares those requests with the probation office with the

23

understanding that they will in turn share it with the Court

24

and with defense counsel. So that's the process we use every

25

time.

41

1

I want it to be clear on the record that I

2

thoroughly disagree with Mr. Lipson's representation that

3

there was some meeting of the minds and that the plea

4

agreement is silent because there was some joint understanding

5

at the time the plea was entered and at the time the language

6

of that plea agreement was drafted regarding restitution in

7

this detail.

8

That's why the terms of the plea agreement are so

9

open-ended in that at the time we have -- like I said, at the

10

time we enter pleas in these cases, we have no way of knowing

11

whether there is going to be continuing requests for

12

restitution either by the victims that are depicted in the

13

count of conviction and/or the counts for which the defendant

14

agrees to accept responsibility.

15

So throughout this plea agreement there's no

16

question that Mr. Bernal has acknowledged his responsibility

17

for the conduct in the counts that are to be dismissed and

18

understands that the Court will fashion a sentence that

19

factors in that conduct the relevant conduct for purposes of

20

the guidelines.

21

It is abundantly clear right from the get-go the

22

number of images applies beyond the one that is distributed.

23

There is no indication that the defendant didn't understand

24

that the ultimate sentence imposed would reflect the conduct

25

in those other charges. Because the restitution language is

42

1

open, the government is now taking the position that the Court

2

can in its discretion order restitution as to the victims

3

associated with Counts 2 and 3.

4

THE COURT: Thank you.

5

MR. LIPSON: Your Honor, if I may. I understand in

6

the course of the discussion I had mentioned that the

7

US Attorney's office when it does come to an explicit

8

agreement about restitution in another case has a different

9

process for agreeing to it. I do want to put it on the record

10

and would ask that this exhibit be submitted to the record

11

under seal in light of the fact -- I did redact key

12

identifying features of this agreement, but it is -- it does

13

show the type of paragraph that this US Attorney's office uses

14

when contemplating an explicit agreement about restitution and

15

taking responsibility for dismissed counts. I do believe that

16

is instructive to determining the extent of really is there

17

ambiguity here or was there in fact a meeting of the minds.

18

THE COURT: Do you want to pass it up.

19

MS. BLOCH: Is that a child exploitation case?

20

MR. LIPSON: It is not.

21

THE COURT: Have you seen this?

22

MS. BLOCH: No.

23

THE COURT: Perhaps you should before.

24

MR. LIPSON: I direct the Court's attention to

25

Paragraph C5 on Page 4 of the plea agreement.

43

1

THE COURT: This is to the point that Ms. Bloch was

2

alluding to, this is obviously a different situation insofar

3

as the victims in these cases are not known prior to the

4

drafting of the plea agreement.

5

MR. LIPSON: Your Honor, I would argue that as

6

fluid as the situation might have been, in light of the

7

government's vast experience in this area, restitution claims

8

are made in these cases quite frequently. The decision to

9

draft the plea agreement in the way it was was not on the

10

likelihood or lack thereof that a restitution claim would have

11

been made. The government's position after -- the position on

12

restitution was made after claims had already been made in

13

this case. That only -- that --

14

THE COURT: Some, not all.

15

MR. LIPSON: Some, that's true, some but not all.

16

But as soon as there's one and it takes that position,

17

Your Honor, it reflects what the government's intent was when

18

it entered into this agreement.

19

So to the extent that the Court finds an ambiguity,

20

I think that's cleared up by the government's own words.

21

Restitution is not due and owing to the victims in Counts 2

22

and 3 of this indictment. That's what they said explicitly in

23

Docket No. 100. That is also reflected in the government's

24

statement in its restitution -- its renewed position on

25

restitution, its most recent filing, where it said that the

44

1

plea agreement is silent on this issue.
Your Honor, there was no explicit agreement about

2
3

restitution on dismissed counts. To that extent, 3663A(a)(3)

4

does not apply and the rules in Paroline and Hughey should

5

control, and as is shown in the plea agreement that I just

6

submitted and which I would like to mark as defense Exhibit A

7

and would like to move for its admission under seal in light

8

of the fact that it is a plea agreement in another case in

9

this district, what that plea agreement shows is that when

10

this US Attorney's office is making an explicit agreement

11

pursuant to 3663A(a)(3) for restitution in a dismissed count,

12

that they explicitly state it. Here that's not what was done

13

because that was not the agreement, there was no meeting of

14

the minds, and for that -- in that sense, Your Honor, I

15

believe no restitution is owing.
But I didn't want to end this part of the hearing

16
17

like this. Mr. Bernal does take responsibility for his

18

offense. I as his advocate can be dispassionate about the

19

effect that his harm caused to the victims of these -- in

20

these videos who are represented by their own counsel. My job

21

is just to represent my client's legal and pecuniary

22

interests. So I feel compelled to argue these more as a --

23

what's the word? -- more legal and litigious side of this

24

hearing.

25

THE COURT: Is there something -- you look like you

45

1
2

want to say something.
MS. BLOCH: I want to make it clear too on the

3

record that from a time standpoint, the government's initial

4

position as requested by the Court was filed well after the

5

plea agreement was drafted, well after the plea was actually

6

entered. So to the extent that it reflects back on the

7

specific terms of the plea agreement I would disagree.

8
9

I was searching for it, and I know I saw it today
and now I can't find it, but my recollection was that the

10

Court -- the government was relying in preparing and filing

11

that response strictly on Paroline, and maybe in light of the

12

terms of the plea agreement that was -- we have now come to

13

sort of an enlightened understanding that it was not -- that

14

the Court could order restitution in light of the terms of the

15

plea agreement even though Paroline didn't speak to that

16

piece. That Paroline was only speaking to proximate harm and

17

not the terms of an agreement that deals with harm as it's

18

done in -- perpetrated in conduct that is not the count of

19

conviction.

20

So I think the plea agreement runs a little -- is

21

not completely reflective of the Paroline decision. But

22

that's where the government's mindset was in filing the

23

initial position. None of which was discussed beyond the

24

terms of the plea agreement prior to the defendant's entry of

25

that plea agreement.

46

I do think that the government has taken a very

1
2

reasonable approach at this point in filing an amended

3

position that does merely articulate that the Court, in light

4

of the sort of open-ended terms of the plea agreement, has

5

discretion in awarding restitution to the victims in the

6

relevant conduct.
THE COURT: Thank you. Pursuant to the Sentencing

7
8

Reform Act of 1984, it is the judgment of the Court that the

9

defendant, Robert Bernal, Jr., is hereby committed to the

10

custody of the Bureau of Prisons to be imprisoned for a term

11

of 132 months with credit for time served on any federal

12

detainer.
The Court will recommend to the Bureau of Prisons

13
14

that defendant participate in any and all available mental

15

health and sexual offender treatment programs while

16

incarcerated, and also that he be permitted to participate in

17

any vocational training and institutional work assignments

18

available.

19

As to restitution, the Court finds that the

20

mandatory restitution to victims under 18 United States Code

21

Section 2259 is not applicable because the statute applies

22

only to victims of the offense of conviction and no

23

restitution requests have been received as to the victims as

24

to Count 1.

25

In the wake of the Mentzer decision, however, it is

47

1

clear that restitution may be awarded to victims beyond those

2

impacted by the offense of conviction. That is, restitution

3

for victims beyond the count of conviction is authorized by

4

law when authorized by the plea agreement.

5

Here the plea agreement, which is the complete

6

agreement between the parties, is not ambiguous and requires

7

defendant to pay restitution under the Victim Witness

8

Protection Act, 18 United States Code Sections 3663, 3663A,

9

and 3664 to the victims and/or other persons or parties as

10

authorized by law in such amounts and such times and in

11

according to such terms as the Court shall direct.

12

The plea agreement also provides that the Court

13

shall determine the victims and/or other persons or parties

14

who will receive restitution authorized by law.

15

Defendant accepted responsibility for the conduct

16

charged in Counts 2 and 3 and stipulated that it may be

17

considered by the Court in imposing sentence.

18

Based on this language, which again the Court views

19

to be unambiguous, the Court concludes that despite the

20

government's original position, that it has the power to award

21

restitution to the victims of defendant's conduct charged in

22

Counts 2 and 3. Defendant affirmatively accepted

23

responsibility for the harm caused to those persons and the

24

Court finds that they are victims under Section 3663.

25

Therefore, pursuant to 18 United States Code

48

1

Section 3663(a)(1) and (3), the Court will order restitution

2

for victims of the offenses at Counts 2 and 3.

3

As to the amount of restitution that the Court will

4

award, notwithstanding the fact that Ms. Bloch is correct,

5

Mr. Lipson, that we did afford you an opportunity to engage in

6

whatever negotiations you believed to be necessary in this

7

case, will postpone and bifurcate a decision as to the amount

8

of restitution and give you an opportunity to engage in

9

whatever negotiations need to be engaged in for that point.

10

The Court finds that defendant does not have the

11

ability to pay interest on restitution. So, just so you know,

12

with respect to that issue in light of the restitution that

13

the government is seeking at this juncture, the Court will not

14

assess interest on that. The Court also finds that defendant

15

is not able to pay a fine. Therefore, no interest on

16

restitution will be ordered in this case once restitution is

17

established and no fine will be imposed.

18

For that same reason, the Court will not order the

19

$5,000 special assessment be paid in this case in accordance

20

with the provisions of the Justice for Victims of Trafficking

21

Act of 2015. That assessment is not payable -- or the Court

22

has the discretion not to allow it to be payable in cases

23

where a defendant is indigent.

24
25

Defendant, however, shall pay to the United States
the additional $100 special assessment. That shall be paid in

49

1
2

connection with his plea of guilty here.
MR. LIPSON: Your Honor, may I have a moment to

3

confer with my client? I want to discuss with him whether or

4

not we want to bifurcate or if he would like an order from the

5

Court today.

6
7
8
9

THE COURT: All right.
(Defendant and his counsel confer off the record.)
MR. LIPSON: Your Honor, may I ask a question of
the Court, and this is somewhat unconventional. Is the Court

10

inclined to accept the government's suggested amount of

11

restitution as it is stated in its paper, in its most recent

12

papers, or is the Court thinking about coming up with its own

13

calculation?

14
15
16

THE COURT: The Court will fashion its own
calculation.
MR. LIPSON: Okay. Your Honor, I think for that

17

reason we would like to continue bifurcation to see if an

18

agreement can be reached between myself and some of the -- and

19

counsel to the victim claimants in this case.

20

THE COURT: Okay. Additionally, as outlined in the

21

plea agreement, defendant shall forfeit to the United States

22

all property subject to forfeiture, including one HTC cell

23

phone, Serial No. H as in hotel, T as in tango, 3, B as in

24

bravo, L, S as in Sierra, 701303.

25

One HP laptop, Serial No. C as in Charlie, N as in

50

1

November, F as in foxtrot, 9432, R as in Romeo, 50.
And one HTC cell phone, Serial No. F as in foxtrot,

2
3

A as in alpha, 58, W as in whiskey, B as in bravo, A as in

4

alpha, 04186.
Upon his release from imprisonment defendant shall

5
6

be placed on a term of supervised release of ten years.
Within 72 hours of release from the custody of the

7
8

Bureau of Prisons defendant shall report in person to the

9

probation office in the district to which defendant is

10

released.
While on supervised release pursuant to this

11
12

judgment defendant shall not commit another federal, state, or

13

local crime; he shall comply with the standard conditions of

14

supervision recommended by the Sentencing Commission and

15

adopted by this Court; and shall comply with the following

16

additional conditions.
Now, I will note for the record that there will be

17
18

conditions that I read off here that do have to do with

19

restitution in the matter given the fact that I did already

20

order that restitution would take place with respect to

21

victims of Counts 2 and 3.
Defendant shall not illegally possess a controlled

22
23
24
25

substance.
Defendant shall not possess a firearm, ammunition,
destructive device, or any other dangerous weapon.

51

1

Defendant shall report any changes of address

2

within 30 days to the United States Attorney's office while

3

any portion of restitution remains outstanding.

4

Defendant is prohibited from incurring new credit

5

charges or opening additional lines of credit without prior

6

written approval of the probation office.

7

Defendant shall pay restitution that is imposed by

8

this judgment that remains unpaid at the commencement of the

9

term of supervised release at a rate of not less than

10

10 percent of his gross monthly earnings. The first payment

11

shall be due within 30 days from defendant's release from the

12

custody of the Bureau of Prisons.

13
14
15

Defendant shall provide the probation office any
access they request with respect to financial information.
Defendant shall submit his person, property, house,

16

residence, vehicle, papers, business, or place of employment

17

to a search conducted by the United States Probation and

18

Pretrial Services office at a reasonable time and in a

19

reasonable manner based upon reasonable suspicion of

20

contraband or evidence of a violation of a condition of

21

supervision. Failure to submit to such a search may be

22

grounds for revocation. Defendant shall inform any other

23

residents that the premises may be subject to searches

24

pursuant to this condition.

25

Defendant is permitted to possess or use a computer

52

1

and is allowed access to the Internet. However, defendant is

2

not permitted to use a computer or other electronic

3

communication or data storage devices, including a cell phone,

4

to access child pornography or to communicate with any

5

individual or group for the purpose of promoting sexual

6

relations with children. Defendant shall consent to the

7

installation of any hardware or software to monitor any

8

computer or other electronic communication or data storage

9

devices used by defendant to confirm compliance with this

10
11

condition.
Furthermore, defendant shall consent to periodic

12

unannounced examinations by Probation or Pretrial Services of

13

any computers, cell phones, or other electronic communication

14

or data storage devices that defendant has access to to

15

confirm compliance with this condition.

16

Additionally, defendant shall consent to the

17

seizure and removal of hardware and data storage media for

18

further analysis by the probation office based upon reasonable

19

suspicion of a violation of the conditions imposed in this

20

case or based upon a reasonable suspicion of unlawful conduct

21

by the defendant.

22

Failure to submit to that monitoring or search of

23

computers and other electronic communication or data storage

24

devices used by defendant may be grounds for revocation.

25

If defendant's employment requires the use of a

53

1

computer, defendant may use a computer in connection with the

2

employment approved by the probation office provided that the

3

defendant notify his employer of the nature of his conviction

4

or charge. The probation office shall confirm compliance with

5

this notification requirement.
Defendant shall provide the probation office with

6
7

accurate information about defendant's entire computer system,

8

both hardware and software, and other electronic communication

9

or data storage devices or media, to include all passwords

10

used and the name of the Internet service providers.
Defendant shall also abide by conditions of the

11
12

Computer Restrictions and Monitoring Program approved by the

13

Court.

14

Defendant shall not possess or access with the

15

intent to view any materials, including pictures, photographs,

16

books, writings, drawings, videos, or video games depicting

17

and/or describing child pornography as defined by 18 United

18

States Code Section 2256(8), or obscene visual representations

19

of the sexual abuse of children as defined by 18 United States

20

Code Section 1466(a).

21

With the exception of brief, unanticipated, and

22

incidental contacts that include defendant's place of

23

employment and/or volunteer activity, defendant shall not

24

associate with children under the age of 18 except for

25

immediate family members unless in the presence of an adult

54

1

who has been approved by the probation office.
Defendant shall participate in a mental health

2
3

and/or sex offender treatment program approved by the

4

probation officer, until such time as the defendant is

5

released from the program by the probation office.
Defendant shall abide by all program rules,

6
7

requirements, and conditions of the sex offender treatment

8

program, including submission to polygraph testing. Said

9

testing shall continue throughout the term of supervision in

10

order to monitor and ensure compliance with the conditions of

11

supervision.
The probation office is authorized to release

12
13

defendant's presentence report to the treatment provider if so

14

requested.

15

As required by 18 United States Code Sections

16

3563(a)(8) and 3583(d) and the Sex Offender Registration and

17

Notification Act, defendant shall report the address where he

18

will reside and any subsequent changes of residence to the

19

probation officer responsible for defendant's supervision;

20

and, further, he shall register as a convicted sex offender in

21

any state where he resides, is employed, carries on a

22

vocation, or is a student.

23

Defendant shall not enter into any rental agreement

24

and/or purchase computers, cell phones, or electronic

25

communication or data storage devices without the consent of

55

1
2

the probation office.
Furthermore, defendant shall not make excessive

3

and/or unexplained purchases of items ordinarily related to

4

children under the age of 18 without the approval of the

5

probation office.

6

Defendant shall not frequent and/or loiter within

7

500 feet of places where children congregate on a regular

8

basis, such as but not limited to schools, playgrounds,

9

children's toy and/or clothing stores, video arcades, daycare

10

centers, swimming pools, zoos, amusement parks, or other

11

places primarily used or that can reasonably be expected to be

12

used by children under the age of 18 without prior permission

13

of the probation office.

14

Defendant shall not photograph and/or videotape any

15

children under the age of 18 without the written consent of

16

their parent or legal guardian who is aware of the nature of

17

defendant's history, characteristics, and/or conviction and

18

has been approved by the probation office.

19
20

Defendant shall cooperate in the collection of DNA
as directed by the probation office.

21

Defendant shall not use or possess alcohol.

22

Defendant shall participate in a program of testing

23

and, if necessary, treatment for substance abuse -- said

24

program to be approved by the probation officer -- until such

25

time as defendant is released from the program by the

56

1
2

probation office.
Defendant shall submit to one drug urinalysis

3

within 15 days after being placed on supervision and periodic

4

tests thereafter.

5

Defendant shall not intentionally purchase,

6

possess, and/or use any substances designed to simulate or

7

alter in any way defendant's own urine specimen.

8
9
10
11
12

In addition, defendant shall not purchase, possess,
and/or use any devices designed to be used for the submission
of a third party urine specimen.
The reasons for the Court's imposition of sentence
are as follows:

13

The sentence imposed here adequately conforms with

14

the statutory requirements and represents a downward variance

15

from the guideline range.

16

Taking a holistic view of this case, including the

17

parties' plea agreement, a sentence of 132 months in prison

18

coupled with a ten-year period of supervised release does

19

balance on the one hand defendant's acceptance of

20

responsibility and his post-conviction rehabilitation with, on

21

the other hand, the very serious nature of his offense and the

22

needs for just punishment, deterrence, and appropriate

23

rehabilitative treatment.

24

Mr. Bernal, I have seen fit to sentence you below

25

the guideline range today. You should not interpret that to

57

1

suggest that this is not an exceptionally serious crime.

2

Children are sexually victimized every day in this country and

3

around the world.

4

The Court does know from reading the record in this

5

case and from hearing from you today that you yourself

6

understand the pain of being victimized as a child, and the

7

victim impact statements in your case reveal that the children

8

depicted in the pornography you possessed also experienced

9

this very real and horrifying trauma as a result. Your sexual

10

interest in children and pornography depicting children cannot

11

go unchecked.

12

Inasmuch as the sentence is designed to punish that

13

behavior and protect society, it is also designed to ensure

14

that you can receive the appropriate treatment and address

15

these criminal urges.

16

The Court's sentence acknowledges the compliant

17

behavior that you have shown while out on bond for the past

18

several months, including maintaining your sobriety, working

19

hard and regularly, and being a positive influence in the life

20

of other adults. I do hope sincerely that you take full

21

advantage of the treatment that I'm ordering today so that you

22

may continue to reckon with your past and have a productive

23

future once you are released from prison.

24

You will receive a copy of my judgment order which

25

will contain a written description of my judgment and all the

58

1

conditions that I have imposed. That document shall serve as

2

your guide for your conduct moving forward.
I do advise you that you have a right to file an

3
4

appeal. Your appeal rights, however, are limited to the

5

follow three situations pursuant to the terms of your plea

6

agreement:
If the government appeals this sentence, you may

7
8

appeal.

9

If the sentence exceeds the applicable statutory

10

limits set forth in the United States Code, you may appeal.

11

Or if the sentence unreasonably exceeds the

12

guideline range determined by me under the sentencing

13

guidelines, you may appeal.

14
15
16

Finally, you may appeal an error that has resulted
in a miscarriage of justice.
Additionally, pursuant to your plea agreement, you

17

have also waived your right to file a motion to vacate

18

sentence under 28 United States Code Section 2255 and a right

19

to file any other collateral proceeding attacking your

20

conviction or sentence.

21
22
23

If you do choose to file an appeal, you must do so
within 14 days.
If you are not able to pay costs, you may apply for

24

leave to appeal in forma pauperis. If you cannot afford a

25

lawyer, you may petition the Court of Appeals to appoint one

59

1

to represent you without cost.
If you are given leave to appeal in forma pauperis,

2
3

you must request the clerk of court to prepare and file

4

forthwith a notice of appeal on your behalf.

5

Do you understand those appeal rights?

6

THE DEFENDANT: Yes, Your Honor.

7

THE COURT: Ms. Bloch, will the government now move

8

to dismiss the remaining counts of the indictment, Counts 2

9

and 3?
MS. BLOCH: Yes, Your Honor, the government so

10
11
12
13
14

moves.
THE COURT: Okay. What is the government's
position regarding bond?
MS. BLOCH: The government's position is that the

15

defendant should be detained following this proceeding. I

16

conferred with the probation office prior to the commencement

17

of this hearing. It is my understanding that they are in

18

agreement with that position.

19

We take the position in large part because the law

20

demands that after conviction, sometimes even at the time of

21

the plea, that the defendant be incarcerated at this point and

22

begin -- certainly at this point begin to serve his sentence.

23

So we would ask that the Court order that he be detained at

24

this point.

25

THE COURT: Okay. Mr. Lipson.

60

1

MR. LIPSON: Mr. Bernal does not object.

2

THE COURT: I am sorry?

3

MR. LIPSON: He does not object.

4

THE COURT: Okay. Jim, I don't think we have our

5

marshal up here.

6

THE DEPUTY CLERK: Yes, Your Honor.

7

THE COURT: We need someone from the Marshal's

8

office. The Court will detain Mr. Bernal effective today.

9

You will be remanded to the custody of the United States

10
11

Marshal's Service, Mr. Bernal.
I do hope that you are able to defeat your demons

12

and make for a more productive life once you are released from

13

prison. With that, I wish you good luck.

14

Jim, if you can have the marshals come up here.

15

THE DEPUTY CLERK: Yes, Your Honor.

16

THE COURT: Court will stand in recess.

17

MS. BLOCH: Judge, can we ask you one question?

18

Will you be scheduling in the future a new hearing for the

19

restitution?

20

THE COURT: Yes.

21

MS. BLOCH: Thank you.

22
23
24
25

(Record closed.)
C E R T I F I C A T E
I, Richard T. Ford, certify that the foregoing
is a correct transcript from the record of proceedings in the
above-titled matter.
S/Richard T. Ford __________________________________

